<html>
<title> - NOMINATION HEARING: JOSEPH JWU-SHAN JEN AND JAMES R. MOSELEY</title>
<body><pre>[Senate Hearing 107-436]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-436

    NOMINATION HEARING FOR JOSEPH JWU-SHAN JEN AND JAMES R. MOSELEY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                             JULY 12, 2001

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                -------
79-497              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            JESSE HELMS, North Carolina
THOMAS A. DASCHLE, South Dakota      THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
BLANCHE L. LINCOLN, Arkansas         PAT ROBERTS, Kansas
ZELL MILLER, Georgia                 PETER G. FITZGERALD, Illinois
DEBBIE A. STABENOW, Michigan         CRAIG THOMAS, Wyoming
BEN NELSON, Nebraska                 WAYNE ALLARD, Colorado
MARK DAYTON, Minnesota               TIM HUTCHINSON, Arkansas
PAUL DAVID WELLSTONE, Minnesota      MICHEAL D. CRAPO, Idaho

                     Mark Halverson, Staff Director

                      Robert E. Sturm, Chief Clerk

                    David L. Johnson, Chief Counsel

               Keith Luse,Staff Director for the Minority

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination for James R. Moseley to be Deputy Secretary, U.S. 
  Department of Agriculture and Joseph Jwu-shan Jen to be 
  Undersecretary of 
  Agriculture for Research, Education, and Economics.............    01

                              ----------                              

                        Thursday, July 12, 2001
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, a U.S. Senator from Iowa, Chairman, Committee 
  on Agriculture, Nutrition, and Forestry........................    01
Lugar, Hon. Richard G., a U.S. Senator from Indiana, Ranking 
  Member, Committee on Agriculture, Nutrition, and Forestry......    05
Buyer, Hon. Steve, a Representative in Congress from Indiana.....    06
Kerns, Hon. Brian, a Representative in Congress from Indiana.....    06
                              ----------                              

                               WITNESSES

 Jen, Joseph Jwu-shan, of California, to be Undersecretary of 
  Agriculture for Research, Education and Economics..............    02
Moseley, James R., of Indiana, to be Deputy Secretary, U.S. 
  Department of Agricultur.......................................    08
                              ----------                              

                                APPENDIX

Prepared Statements:
     Jen, Joseph Jwu-shan........................................    22
    Moseley, James R.............................................    24
Document(s) Submitted for the Record:
    Allard, Hon. Wayne...........................................    28
     Jen, Joseph Jwu-shan, Biography.............................    30
    Moseley, James R., Biography.................................    57
Questions and Answers:
    Conrad, Hon. Kent............................................    79

                              ----------                              


 
      NOMINATION HEARING: JOSEPH JWU-SHAN JEN AND JAMES R. MOSELEY

                              ----------                              


                        THURSDAY, JULY 12, 2001

                                       U.S. Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 8:37 a.m., in 
room SR-328-A, Russell Senate Office Building, Hon. Thomas 
Harkin, [Chairman of the Committee], presiding.
    Present or submitting a statement: Senators Harkin, Dayton, 
Lugar, Roberts, Allard and Crapo.


  STATEMENT OF HON. THOMAS HARKIN, A U.S. SENATOR FROM IOWA, 
  CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    The Chairman. The Senate Agriculture, Nutrition and 
Forestry Committee will come to order.
    Today, we are continuing our series of hearings on the next 
Farm bill. Before we do that however, we are going to turn to 
two nominations: the nomination of Dr. Joseph J. Jen to be 
USDA's Undersecretary for Research, Education and Economics and 
the nomination of Mr. James Moseley to be Deputy Secretary at 
the Department of Agriculture. I would ask both nominees to 
stand and raise your right hand and be sworn in.
    Do you swear or affirm that the testimony you are about to 
provide is the truth, the whole truth and nothing but the 
truth, so help you God?
    Mr. Jen. Yes.
    Mr. Moseley. Yes.
    The Chairman. Please be seated, and I would ask both of 
you, do you agree that you will appear before any duly 
constituted committee of Congress if asked to appear?
    Mr. Jen. Yes, sir.
    Mr. Moseley. Yes.
    The Chairman. Thank you very much.
    Today, at first, we will be considering the nomination of 
Dr. Joseph J. Jen to be USDA's Undersecretary for Research, 
Education and Economics. Dr. Jen is currently dean of the 
College of Agriculture at California Polytechnic State 
University and has a long and distinguished career in 
agricultural research, both in the private and the public 
sector. He has published more than 60 scientific articles and 
published two books. These research achievements led Dr. Jen to 
be elected a fellow of the Institute of Food Technologists in 
1992. This is a very high honor, as there are only about 100 
such fellows worldwide.
    Clearly, there are many exciting and promising developments 
and possibilities in agricultural research. I look forward to 
working with you, Dr. Jen, in the important position for which 
you are nominated. Dr. Jen, I would also like to recognize your 
wife, Salina Jen, and your brother, James Jen, whom I 
understand are here in the audience someplace behind you there, 
and we welcome you to the committee. Thank you very much both 
for being here.
    Before I turn to you, Dr. Jen, for your statement, I would 
first like to recognize on my left, the Senator from Kansas, 
Senator Roberts, if he has any opening statement or----
    Senator Roberts. No, sir, I think we ought to expedite the 
process. Thank you. We have two excellent nominees.
    The Chairman. Yes, we do. We have two excellent nominees.
    Senator Dayton.
    Senator Dayton. I second the sentiments.
    The Chairman. Thank you very much.
    Well, Dr. Jen, welcome to the committee. Congratulations on 
your selection, and the floor is yours. Please proceed as you 
so desire.

    STATEMENT OF JOSEPH JWU-SHAN JEN, OF CALIFORNIA, TO BE 
   UNDERSECRETARY OF AGRICULTURE FOR RESEARCH, EDUCATION AND 
                           ECONOMICS.

    Mr. Jen. Thank you, Mr. Chairman. Could I also please ask 
the record to show that my sister, Jennice Sih is also here?
    The Chairman. Well, I am sorry, I missed her.
    Mr. Jen. She is here from Pennsylvania.
    The Chairman. Well, we welcome you. Thank you very much for 
being here. Thank you.
    Mr. Jen. Thank you, Mr. Chairman and distinguished members 
of the committee. I am honored to appear before you this 
morning. I am grateful to President Bush and Secretary Ann 
Veneman for nominating me for the Undersecretary of Agriculture 
position. I was born in mainland China and grew up in Taiwan. I 
came to this country as a graduate student. When my wife, 
Salina, and I were married, we had a total of $48 to start our 
family.
    Only in the United States can someone like me be given the 
chance to serve this country in this capacity. If you choose to 
confirm me, I pledge to you that I will do my very best to 
serve this country. My professional career involved serving at 
three land grant institutions: Clemson, Michigan State and the 
University of Georgia; one private enterprise, the Campbell 
Soup Company; and then, the largest non-land grant agriculture 
program at Cal Poly.
    My areas of research expertise are in the post-harvest 
handling of fresh fruits and vegetables, food texture and 
biotechnology. I am active in the scientific professional 
society and have served on the California State Board of Food 
and Agriculture since 1997.
    If confirmed, my biggest challenge of the office is the 
diverse responsibilities of the REE mission areas and the 
balance among the three elements carried in its name. I feel 
that I know the three elements of research, education and 
economics well, and my 20 years of experience in administration 
have prepared me to carry out the management of REE. My 
philosophy has always been to focus on selective strategic 
issues and to do a test very well or not do it at all.
    Agricultural research and education are key to building a 
knowledge reservoir and transfer of applied technology. 
Economic and statistical analysis provide the data base and 
background information essential for key policy decisions. With 
the growing global competition in agriculture and consumer 
demand for instant knowledge, the REE mission area is faced 
with critical choices in performing many important tasks with a 
limited budget. If confirmed, I look forward to working with 
members of this committee on prioritizing the many tasks and 
challenges facing REE.
    Thank you again for this opportunity to consider me for 
this highly honored position.
    [The prepared statement of Mr. Jen can be found in the 
appendix on page 22.]
    The Chairman. Dr. Jen, thank you very much for all that you 
have done in agriculture. As a first-generation American 
myself, I am glad you are here, and I am glad you are coming 
into this position. We need your expertise and your background 
vitally, at this important point where we are especially as it 
relates to plant and animal genomics. USDA participates in 
various efforts, but in my own personal view, it has yet to 
provide any true leadership for the plant, animal and microbial 
communities by investing in genomics research at a level that 
reflects the true value of agriculturally important organisms 
from economic, scientific and biomedical standpoints.
    USDA's support for plant genomics is a pittance compared to 
the National Science Foundation, and funding is virtually 
nonexistent for genomics research in animals, plant pathogens 
and animal pathogens. I believe it is time for the USDA to step 
up to the plate and ensure that agriculture participates fully 
in the genomics revolution by providing significant funding for 
genomics research at the ARS and at the cooperative state 
research, education and extension services.
    If I might ask as a general question what steps you might 
envision taking to elevate USDA's role and commitment in plant, 
animal and microbial genomics.
    Mr. Jen. Well, Chairman, you touched an area I did have a 
little bit of expertise in myself.
    The Chairman. That is why I asked it.
    [Laughter.]
    Mr. Jen. In that I have felt for many years that the 
research in USDA in this area has not been emphasized and 
actually opened the door for some of the private companies to 
forge ahead on some of the research in this. In fact, I think, 
like the roundup soybean: if it was discovered by the 
scientists from Iowa State University, I think it would have a 
lot more credibility than its being discovered now by Monsanto 
Company. I think it is an example that sometimes, we need to 
put funding in the long-term research, because 10 or 20 years 
ago, biotechnology research was not emphasized, and there was 
not the good planning of probably looking into the future.
    I think what I would like to do is that hopefully, with my 
experience, we can do a little bit of catch-up in the next few 
years.
    The Chairman. Well, I sure hope so. I serve on another 
committee that has been involved in the Human Genome Project at 
NIH beginning back in 1992. We have made great progress there, 
but there is a whole new realm of knowledge to be gained from 
plant genomics and animal genomics which we just have not 
really pushed ahead on. I hope that we can now get the 
Department of Agriculture moving more aggressively in that 
area, so I welcome your interest, and I know your background in 
that area, and that is why I wanted to ask the question.
    One last thing I wanted to ask before I turn to Senator 
Roberts, is regarding sustainable agriculture research. 
Agriculture research, again, is vital not just in ensuring the 
continuation of production but also the quality of life in our 
rural communities and the health of our environment. How do you 
envision your position focusing on research programs that will 
both sustain our environment and rural communities at the same 
time?
    Mr. Jen. Senator, I am at Cal Poly right now. I am the dean 
of Cal Poly. We have a branch campus, about 3,000 acres, north 
of Santa Cruz near the coast. It is a piece of land that has 
more endangered species than any other parcel in California. We 
have students there, and we practice a number of the 
sustainable agriculture practices: holistic management of 
grazing, organic farming, trying to preserve the wetlands, and 
we are studying both the pros and the cons, the advantages and 
disadvantages of sustainable agriculture.
    It is actually my firm belief that production agriculture 
and environment not only can peacefully coexist, but they can 
actually enhance each other if it is practiced right. Actually, 
it is one of my dreams that I want to make that branch campus 
the model of how sustainable agriculture can be taught and 
trained.
    The Chairman. I might ask one other question before I turn 
to Senator Lugar, who has joined us. What perspective does your 
background in food technology provide you regarding food 
safety, and is it your intention to make food safety a high 
priority?
    Mr. Jen. Food safety, absolutely, is a very high priority, 
because it is the consumer's health at risk and my private 
industry background does take that into consideration, because 
I think all of the reputable food processors in this country 
actually, want to produce food with almost zero risk for food 
safety. The unfortunate thing is that there is no such thing as 
zero risk on anything, but it is very close.
    We do have the safest food in the world right now or in 
human history even right now, but, we should continue to 
improve as much as possible in that area.
    The Chairman. Thank you very much, Dr. Jen.
    The Chairman. Before we turn to other Senators, we now have 
our former distinguished Chairman of this Committee and now our 
Ranking Member, my good friend, Senator Dick Lugar, and I will 
turn to Senator Lugar for an opening statement and for an 
introduction. Then, I know the Congressmen also have timetables 
they have to meet, and so, after yours, I will turn to the two 
Congressmen for their introductions at that time.

 STATEMENT OF HON. RICHARD LUGAR, A U.S. SENATOR FROM INDIANA.

    Senator Lugar. Thank you very much, Mr. Chairman. I had an 
opportunity to visit with Dr. Jen earlier this week, and just 
for the sake of the record, the FBI reports were made known to 
you and to me. I examined those carefully for both of the 
nominees and found them completely in order. I just wanted to 
make that comment for the benefit of the record. I appreciate 
very much your coming this morning, Dr. Jen. I strongly support 
your nomination.
    Mr. Jen. Thank you, sir.
    Senator Lugar. It is a special privilege to introduce this 
morning a fellow Hoosier, Jim Moseley. He has been nominated by 
the President to serve as Deputy Secretary of Agriculture. Jim 
has extensive experience as an Indiana livestock and grain 
farmer. His extensive business skills and leadership abilities 
have been acknowledged in a variety of ways nationally as well 
as in the Hoosier State, including the Indiana Master Farmer 
Award; the Indiana Outstanding Young Farmer designation; and 
his being named as National Outstanding Young Farmer of 
America.
    He started his farming career with the help of the 
Department of Agriculture, with loans through what was then 
called the Farmers Home Administration. Jim Moseley is an 
example of how the Federal Government can constructively help 
beginning farmers get a start in agriculture and, through hard 
work, achieve success. In addition to his farm perspective, Jim 
is a Washington veteran, having served as agricultural advisor 
to the EPA administrator and as Assistant Secretary of 
Agriculture for Natural Resources under former President George 
Bush.
    Due to his previous Washington experience and his 
Midwestern agricultural background, he has a keen sense of what 
areas are functioning well at the department as well as those 
areas needing immediate attention, such as the Office of Civil 
Rights and the Food Safety and Inspection Service. Jim is 
dedicated to an improved departmental operation, providing more 
efficient service to its customers and keeping in mind benefits 
to taxpayers as a whole.
    He is a Purdue University graduate with a bachelor of 
science degree in horticulture. He has actively participated in 
several organizations, including the Indiana Nature 
Conservancy; the Outstanding Farmers of America; and the Farm 
Foundation. It is a delight to have in the committee room today 
Jim's wife Cathy, who has been an active partner in that 
farming enterprise. I believe that Cathy and Kyle, their son, 
are with us today, and I would ask that they stand so that they 
can be recognized, too. We are delighted that you are here.
    I thank Mr. Chairman for allowing me to make this 
introduction at this point, and it is also a great pleasure to 
have our colleagues, Congressman Buyer and Congressman Kerns, 
here whom I know will want to commend our nominee.
    The Chairman. Thank you very much, Senator Lugar, and I 
will turn now to the two Congressmen. I do not know who is 
senior, but Congressman Buyer was here first.
    [Laughter.]
    The Chairman. I will recognize Congressman Buyer.

  STATEMENT OF HON. STEVE BUYER, A REPRESENTATIVE IN CONGRESS 
                         FROM INDIANA.

    Mr. Buyer. I am always interested in the standards that you 
hold here on the other side.
    [Laughter.]
    Mr. Buyer. I will not be redundant, Mr. Chairman, to the 
comments made by Senator Lugar. I am not here because the 
nominee lives in my new Fourth Congressional District of 
Indiana. I am here because I stand with my friends. I have 
known the Moseley and the Maple families in Indiana, and both 
Jim and his wife Cathy come from good families, and they have 
worked hard to enhance the reputations of good names. I think 
Senator Lugar was very accurate when he said that these are two 
individuals who started out with nothing, just as Dr. Jen in 
his testimony started with $48 in his pocket, Jim and his wife 
did not start with a net worth; they started with a net debt, 
like many who start in agriculture, and they have been very 
successful in their hog operations, their grain and their feed. 
I would say that they both are representative of Hoosier pride, 
and they have raised seven children, and so, I believe that he 
is truly representative of the family farm.
    I also would say that he understands what it means to be a 
good steward of the land. I would say that he also has an 
environmental conscience. He has a conservation awareness. He 
has personally felt the toils of hog operations and how 
difficult that has been over the years with its gyrations. Is 
that accurate?
    [Laughter.]
    Mr. Buyer. Very high peaks and very low valleys. He also 
understands the challenges that the farmer faces. This is an 
individual of whom--this is an individual who has actually 
lived and operated on the farm, so he knows what it means to 
get the dirt under the fingernails, and he knows how difficult 
the challenges are that the family farmer faces today.
    When you have the opportunity to have an individual who 
will help lead agricultural interests in this country, it is 
someone who has been there; who is there right now, and it is 
someone to whom the farmer can personally relate. Also, Senator 
Lugar commented that he has a past history in his dealings here 
in Washington. Well, I think that can be very helpful in his 
present leadership post.
    You also, Mr. Chairman, in your questions to Dr. Jen, you 
used the words sustained ag research, and Mr. Moseley, in his 
associations with Purdue University, he understands the 
importance of sustained ag research and how that benefits our 
society. I stand here with my friend, and I believe he 
represents the best America has to offer to help lead our 
agricultural interests.
    I yield back my time.
    The Chairman. Congressman Buyer, thank you very much. That 
is a very fine tribute.
    The Chairman. Congressman Brian Kerns, welcome.

  STATEMENT OF HON. BRIAN KERNS, A REPRESENTATIVE IN CONGRESS 
                         FROM INDIANA.

    Mr. Kerns. Thank you, Mr. Chairman, Ranking Member, fellow 
Hoosier.
    I, too, join with the Indiana delegation represented in 
recommending Mr. Moseley for his appointment position today. I 
represent Mr. Moseley in Congress, and, of course, Tippecanoe 
County, Purdue University, all important to me and near and 
dear to my heart. My wife is a graduate of Purdue University, 
and I know Senator Lugar has actively been involved in helping 
the university and agriculture in Indiana and across the 
nation, and I just thank Mr. Moseley and his family, because 
those of us involved in government know that it does involve 
your entire family when you take an important position like 
this.
    I think he will serve the President well. Indiana and 
Tippecanoe County are involved with the Farm Progress show this 
year, so the Nation will be watching very closely the home area 
in Tippecanoe County, and we will be very proud as Hoosiers to 
have him as a member of the President's team and working with 
all of you and all of us on the House side with the committees 
as we move forward on the many difficult issues facing 
agriculture today.
    My family and I also live on a small farm in Indiana, much 
smaller than Mr. Moseley's, but I can tell you I appreciate the 
sacrifice that he and his family have made over the years to 
build an operation and to set a standard for the community of 
excellent quality products, and, as we work to expand exports 
across to other lands and other countries, I think Jim is most 
qualified and can bring a real hands-on approach to some of the 
important issues we face in the Congress.
    I want to thank the committee, the chairman and the ranking 
member for allowing me to recommend and support our fellow 
Hoosier today, and it is a great honor to be with you. Thank 
you, Mr. Chairman.
    The Chairman. Congressman Kerns, thank you again for your 
very fine tribute.
    The Chairman. Mr. Moseley, we welcome you back. Of course, 
we are familiar with your previous tenure here in Washington. I 
congratulate you for that. You did a great job as an advisor at 
EPA and also as the Assistant Secretary for Natural Resources 
in the previous administration. I think both of these will 
serve you well in your new position as Deputy Secretary.
    I might add that by listening to Congressman Buyer, 
Congressman Kerns and Senator Lugar, it sounds like the only 
tribulation as a family farmer that you have not gone through 
is milking cows. Is that right?
    [Laughter.]
    The Chairman. Now, that indicates to me you are a real 
smart guy.
    [Laughter.]
    Mr. Moseley. Sir, I do not do dairy.
    The Chairman. I do not do dairy! You are a smart guy!
    Well, Mr. Moseley, welcome back. I know the Congressmen 
have tough schedules. You may stay if you like, or if your 
schedules compel you to leave, you may be excused at any point 
you want. I would turn now to Mr. Moseley for his statement.

    STATEMENT OF JAMES R. MOSELEY, OF INDIANA, TO BE DEPUTY 
           SECRETARY, U.S. DEPARTMENT OF AGRICULTURE.

    Mr. Moseley. Thank you, Senator.
    Good morning, and thank you, Mr. Chairman, Senator Lugar, 
Congressman Buyer and Congressman Kerns. I really appreciate 
your kind words and the other members of this committee as 
well. It is a pleasure to be here and an honor to appear before 
this committee. In awaiting this moment, I have had some time 
to reflect on the magnitude of the task before me. Those 
thoughts and an explanation of the attributes that I will bring 
to this position if confirmed as the Deputy Secretary are 
contained in my formal statement that, with your permission, 
sir, I will submit for the record.
    The Chairman. Without objection.
    Mr. Moseley. Despite an attempt at brevity here, I want to 
state clearly how honored I am to have been asked by President 
Bush and Secretary Veneman to serve the Department of 
Agriculture. I have been fortunate enough to experience a stint 
at USDA about 11 years ago, and that period when I served as 
Assistant Secretary of Agriculture for Natural Resources 
Environment was a proving ground for the more complex job of 
Deputy Secretary.
    That position included managing the Forest Service, USDA's 
largest agency, and that gave me a tremendous opportunity to 
work with some very difficult public policy issues in a 
significant way. Just as important is my experience managing my 
farm, which is now a large, diversified crop and livestock 
operation in Indiana. I grew up on a farm in Indiana and was 
fortunate enough to start with Cathy my own farming operation 
about 31 years ago with help from Farmers Home Administration. 
It was necessary to have that help, because we started with no 
equity other than our college educations.
    My wife, Cathy is with me today, and I endured the economic 
growing pains of turning a modest, 250-acre rented operation 
into a small business vital enough to support several employees 
and partners plus our seven children.
    On the personal side of farming, I know the pleasure of 
walking through the hog barn at night, watching the baby pigs 
lined up along their mom's belly nursing. It is still a special 
moment, no matter when you do it. I understand the feeling of 
accomplishment that comes from looking out over a field of corn 
in the early morning light and seeing it change day-by-day. 
There is a satisfaction in that that few other experiences 
provide.
    Unfortunately, though, I also know the difficulties of 
making ends meet when production costs rise or commodity prices 
drop unexpectedly. We survived the hog crisis three years ago, 
but I know too many producers who did not, and I still feel the 
pain. Still, I count on the sum total of my experiences to help 
me connect with the producers that the Department, by our 
stated mission, has the responsibility to represent.
    I also know that without the assurances that the Department 
provides in important areas of food safety and the environment 
that the consumers here and abroad will not have the confidence 
to trust what our farmers produce. We must be vigilant in our 
pursuit of credible ways to maintain that trust.
    We also have the need to accomplish this with dignity and 
respect for everyone involved. The Department must honor all 
people and right any wrong that may have been committed in our 
past. I pledge my commitment to this committee and to all the 
Members of Congress to do the best job that I have the energy 
to accomplish. For me, life is about honor, integrity and 
commitment. Because I have more questions than answers right 
now, all I can do is pledge to you to continue to live those 
values. They have served Cathy and I well, and we would expect 
them to continue to do so.
    To make progress, we must agree on the right course for 
American agriculture. In that regard, I look forward to working 
with each one of you to serve the needs of those who depend 
upon us to help them. I thank you, Mr. Chairman, for the 
opportunity to appear before you today. It truly is an honor, 
and I would be happy to answer your questions.
    [The prepared statment of Mr. Moseley can be found in the 
appendix on page 24.]
    The Chairman. Mr. Moseley, thank you very much for your 
eloquent statement and for your excellent written statement, 
which I read the other evening. I again want to personally 
thank you for your willingness to come back to Washington and 
to serve in what Abraham Lincoln called the people's 
Department, Agriculture, and I know you will do an outstanding 
job as our deputy there.
    I just have a couple of short questions before I turn to 
Senator Lugar. Several of the articles you submitted in your 
packet which I read indicate, that you have a very strong 
interest in conservation. There is a lot of talk that this new 
Farm bill coming up is going to be strongly conservation-
oriented. Personally, I hope so. Senator Smith and I and 
several others on this side and some on the other side have 
introduced a conservation bill which has been dubbed the 
Conservation Security Act.
    I hope that you would take a look at that, and please give 
us any advice, suggestions, observations, you have on what 
needs to be done with that bill or any other observations you 
have on how we can both enhance farm income and, at the same 
time, provide help for farmers who are practicing good 
conservation methods. My view has been that in the past, so 
many farmers have been using their time, their equipment, 
sometimes their own money to be good stewards, and they are not 
getting much reward for it. However, if they take land out of 
production for CRP or WRP or something like that, then, they 
can get paid for it.
    It seems to me that we need to bridge that and get to the 
point where we are actually providing help and support for 
farmers who are indeed being good stewards of the land, and 
that is sort of the basis of that bill.
    You do not need to respond. I am just asking to please take 
a look at it. I am open for any suggestions or advice that you 
might have for us, and if you have any general comments on 
conservation itself.
    Mr. Moseley. Well, Chairman, obviously, conservation has 
been something that has been a part of my life since I was a 
little child, because I remember going with my grandfather and 
planting trees and going fishing with him on the farm pond that 
he established, and we have continued that tradition. My 
background is that we have to have conservation on every piece 
of agricultural land, working lands as well as those lands that 
might be set aside for wildlife habitat or whatever purpose. I 
am going to be delighted to spend some time working with you, 
because this is something that is very important to me.
    The Chairman. I appreciate that very much.
    Second, it is my understanding you have adopted some 
innovative technologies to handle the manure from your hog 
operations. Again, this has bedeviled a lot of us in many parts 
of the country where we have had more and more concentration of 
livestock operations, particularly hog breeding operations, and 
we are having a problem in terms of addressing the manure 
issue. I hope that we can address this in the next Farm bill, 
and again, since you have been there and done it, I would 
appreciate any suggestions and advice you have on how we can 
help farmers, who are producing hogs to be able to handle the 
manure problem that they have.
    It is funny. I am like you. When I was a kid, we never 
referred to it as waste. This is a valuable resource that 
everyone used, and we used it as fertilizer, and I think we 
have to get back to that. We have to think of economical ways 
of doing that. Any suggestions you have on that, I would 
appreciate.
    Mr. Moseley. You are absolutely right, Chairman. It is not 
a waste. There was a period of time I think we went through, 
and we considered it to be so. That is not the case. It is a 
valuable resource that needs to be used. We have looked at that 
in our operation as we have grown over the years, and we have 
looked at it as a resource that we could use, and we have tried 
to develop some new and innovative technologies to make it 
easier to handle it and make sure that we do it in an 
environmentally responsible and sensitive way.
    When those discussions come up, I will share whatever 
little bit of expertise I may have been able to accumulate to 
this point.
    The Chairman. Which is considerable. Thank you very much, 
Mr. Moseley.
    Mr. Moseley. Thank you.
    The Chairman. Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
share the Chairman's enthusiasm for the conservation work that 
I am certain will be a part of our committee's efforts in the 
Farm bill, and I want to recognize again, as he has, your 
leadership in this area, your prior service in Washington as 
well as on the farm in Indiana.
    I would just note for the record that in 1985, 97 cents of 
every financial assistance dollar for conservation was put on 
conservation on working lands, and only 3 percent went to land 
retirement in 1985. Now, today, only 15 percent goes to the 
working land conservation part of this and 85 percent to land 
retirement. I make that point because clearly, this is going to 
be an issue before the committee, and certainly, Senator Harkin 
and others as they have tried to address this legislation 
recognize that.
    I want to make a point that also, after our hearing on 
conservation early this year, conservation people in Indiana 
came to me and revealed that every acre in Indiana is now 
covered by extensive maps. For instance, on my farm, they could 
identify acre-by-acre the soil types. They could even make an 
estimate in a normal year with normal rainfall what the yield 
would be for corn and for soybeans. There is an extraordinary 
amount of information available.
    Now, on top of that, then, they also have some suggestions 
for what we ought to do to enhance the value of that land and, 
perhaps even more importantly, the cleanliness of the water in 
terms of the runoff and various other things that will be 
important in the stewardship of that land. I simply make this 
point because I know that you share an enthusiasm for the EQIP 
program and for others that we have adopted, and maybe you have 
some ideas in the future. Do you have any at this point that 
you want to reveal to us, or can you give us some landscape of 
what kind of leadership you may offer in the conservation area?
    Mr. Moseley. Well, in light of the need for brevity, I will 
not go into a long diatribe as to all of the things. Senator, 
this is a very large area of concern, and there are many things 
that we can do. It is putting in place the right incentives; 
making sure that we have the resources available. Literally, I 
could sit here for an hour, which you do not want me to do, and 
talk about this.
    The key thing is that the Department does need to provide 
leadership. We have some tremendous opportunities. The new GIS 
technology that I think that the folks from Indiana were 
alluding to is very significant in terms of helping us to give 
some sense and idea of where these resources are at and how we 
can best utilize them so that we do not end up with rivers and 
streams that have contamination.
    The whole issue of soil quality is something that I think 
we will see emerge in the debate as we move forward here, and 
if we enhance soil quality, we enhance water quality. There is 
a broad array of issues that we need to address, and what I 
would like to do is pledge to you that I will be a leader 
within the Department to try and accomplish those things and be 
in discussion and debate with the Members of this Congress, and 
we will work on it.
    Senator Lugar. Well, I thank you for that response and 
likewise, your desire for brevity. I am hopeful that after your 
confirmation that swiftly, that leadership that you have 
mentioned will be forthcoming; in other words, that you will 
make recommendations, or you and the Secretary together or 
however you want to manage your testimony or your information, 
to all of us, because the timeframe is such in which if you 
have important ideas, they really need to be made known----
    Mr. Moseley. Yes.
    Senator Lugar [continuing]. Rapidly, and I think the 
Chairman that would share that thought: if we are to begin 
forming a conservation title of the Farm bill, why, the grist 
for the mill needs to become swiftly.
    I would just ask one question of Dr. Jen, and that is from 
our conversation earlier this week, I know of your leadership 
in the research area your enthusiasm for this, but I would just 
take the opportunity to say this committee has tried to 
authorize cutting-edge research, merit-based, anyone in the 
country could apply, really, that has extraordinary ideas.
    Unhappily, all that we have authorized, $120 million a year 
for 5 years, for 2 years, the House of Representatives 
appropriators X-ed out the cutting-edge part of it, and we did 
not have that benefit. Now, the third year, to his credit, 
Secretary Glickman found ways in which the Department of 
Agriculture could revive the idea, so $120 million of 
extraordinary research projects occurred last year in the 
country, and I hope that may occur again.
    Likewise, in our biomass quest, and this is so important, 
because everyone talks a good game about agriculture and 
energy, but the amount of follow-through has been, if not 
negligible, disappointing. I am hopeful that your enthusiasm in 
both of these areas will likewise manifest itself in 
suggestions to us either for legislative enactment or what you 
and the Secretary can do administratively. We need to move the 
ball ahead, because there is fertile ground, I think, with 
legislation on the books, but if we need to tweak the system, 
this is the time, and your comments and suggestions would be 
very helpful in a short period of time.
    Do you have any further comment this morning?
    Mr. Jen. Senator Lugar, thank you very much. I think like 
you said, like you and I discussed briefly, the competitive 
grant programs it is one of the forms of funding mechanisms 
that can probably bring the best research return with the least 
amount of investment. Not only that, it can also have the 
chance of having more team kind of approach, that multi-
disciplinary type of approach than a set formula way of doing 
things and things like that.
    That does not mean that, formula funding is not good, 
because I think it is absolutely needed for just a base program 
as well. I think if any new idea of research and the cutting-
edge type of research is launched, I think the competitive 
grant program should be the way to go.
    Senator Lugar. Thank you very much.
    Mr. Jen. I really thank you for that question.
    The Chairman. Thank you, Senator Lugar.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Mr. Moseley, looking at your reports over the last several 
years, your own farming operations are almost a microcosm of 
American agriculture in that the extent of your participation 
totally appropriately and probably necessarily in the 
Government programs both in terms of dollars as well as the 
number of programs underscores my experience with Minnesota 
farmers as well, that they are more and more dependent 
financially on the Government payments rather than market 
prices, and the number of programs they are participating; it 
just seems as though to be a successful farmer these days, you 
have to be farming to fit into the Government program niches 
rather than into market-based agriculture.
    Do you have any thoughts at the macro level on how, 
especially with this new Farm bill, we might address that?
    Mr. Moseley. Well, I certainly have had a lot of experience 
in this as you have been able to detect. We have participated 
in price support programs for as long as they have been 
available.
    Senator Dayton. Sure.
    Mr. Moseley. It became a competitive issue, really. I can 
recall back several years ago; in fact, I believe that Senator 
Lugar, the last time I was before this committee, questioned me 
about this. We literally got to a point in 1986 when, if we 
were not participating, and we had not participated for a 
couple of years, and we did not participate in a program, we 
literally could not retain our asset base. We could not retain 
the land that we had been farming. We were not competitive. 
Other people could take the Government program support, and 
they could literally bid more for that resource than what we 
could.
    It was essential at that point in time. I think what you 
are pointing out here is that there are cycles in agriculture, 
and there are those up times that we feel very good, and then, 
there are those down times for whatever reason. It may be 
prices; it may be drought; it may be a broad national disaster; 
it may be a very regional, localized. There are those times 
when farmers need some help, and I understand that.
    Now, for us to bring forward the right policy and figure 
out when we need to apply it and how we need to apply it I 
think is something that this body, as well as the Department of 
Agriculture, needs to be fully engaged in in the debate and the 
discussion. I do not have a specific set of recommendations for 
you today about how to do that, but I will tell you that with 
the experience and the background that I have, I can certainly 
be fully engaged within the Department in terms of when a 
policy recommendation might come forward I can evaluate: will 
that work at the farm level? Will that really help farmers?
    Senator Dayton. Do you consider current market prices for 
basic agricultural commodities to be too low? If so, do you 
have any recommendations or a sense of a direction that we need 
to go in to boost those market prices?
    Mr. Moseley. The current market price for any farmer is 
always too low.
    [Laughter.]
    Senator Dayton. Well-said.
    Mr. Moseley. Now, that is just reality speaking. Very few 
of us go to the coffee shop and talk about how wonderful the 
prices are. Obviously, we have gone through a very distressed 
time both in the crops and the livestock, and we have some 
major challenges here. We have trade issues that if we could 
open up this trade, it would make a significant difference for 
the agricultural economy in this country.
    We have issues there that need to be addressed, but in the 
meantime, and there are opportunities for any size of farm to 
do better, to move further up the food chain in terms of the 
value added that they are putting into their products. We are 
not going to have all of our answers come from trade, and we 
are not going to have all of those answers addressed 
immediately, and I think there is a need for us to continue to 
work at making sure that there is a safety net for farmers. 
What that is right now, I am not going to give you an idea, 
because I have questions as well.
    I will be happy to work with you, and we will try to figure 
it out.
    Senator Dayton. Thank you.
    Dr. Jen, I would just like to go back for a brief time here 
to the Chairman's comment about feed lot operations, because we 
have a horrific problem in parts of Minnesota with, now, the 
scale of livestock production and these legumes and the effects 
they have on their neighboring farmers and neighboring 
communities, and I guess--and I may not be fully aware of 
everything going on, but it seems to me that the USDA's 
research involvement in this area, at least the dissemination 
of that information, has been just minuscule relative to the 
scope of the problem, and do you have any thoughts going in on 
how the USDA could both make that research more applicable to 
current conditions and also disseminate that information more 
effectively?
    Mr. Jen. Senator, I could not speak about the dissemination 
of the report and things like that, and if you want, if you 
choose to confirm me, I can look into it and report back to you 
on why it was not being done.
    As far as the biomass, that is a research area that is very 
multi-disciplinarily oriented. It needs engineers and other 
people besides just agricultural scientists to be able to get 
it done. It is kind of like we had a little project at Cal Poly 
where the dairy manures in the legumes are being covered with 
engineers' help, trying to harvest the energy and heat the 
waters for the dairy barn to use, and that is kind of like the 
biomass is being turned into an valuable thing.
    At the same time, it also takes out the odors for the dairy 
farmers. It is still in the experimental stage, but certainly, 
these are the types of research projects, but they cannot be 
done just by the animal science people or the dairy science 
people. We brought in, really, the engineers, the ag engineers 
and the mechanical engineers and other people; the flavor 
chemists from food science in a team approach, and I think that 
latches on a little bit of one of my answers to Senator Lugar: 
to me, today's research has to be approached by a team. No 
longer is a single scientist doing a single discipline to solve 
a problem. The problem is multi-faceted and needs a team 
approach for that.
    Senator Dayton. Thank you, Dr. Jen.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Dayton.
    Senator Roberts.
    Senator Roberts. Yes, thank you, Mr. Chairman.
    I am struck by the caliber of our nominees and the tenor of 
this morning's hearing. I think this has been a class act 
hearing. I think that any farmer and rancher--well, yes, we do 
have TV; I apologize--but I think any farmer or rancher who 
would read the testimony here and hear the responses of our two 
nominees would feel pretty darn good that we are going to have 
very capable hands down at the Department.
    Kika de la Garza, who is the chairman emeritus of the 
sometimes powerful House Ag Committee----
    [Laughter.]
    Senator Roberts [continuing]. Used to say in agriculture, 
there is a special feeling, a special commitment. You have to 
feel the ground; have to feel the earth. We, at that time, on 
the minority side used to listen to those speeches quite often, 
as my colleagues will testify. He was really making a point, 
and I think both of the nominees certainly have that feeling. I 
am struck by the only in America stories of both nominees: 48 
bucks and then starting out with the beginning farmer program. 
I remember in 1980, when I first ran for Congress, I said the 
most important question in agriculture today is where is the 
next generation of farmers going to come from? Jim, you are an 
outstanding example of that, you and your family.
    Now, for both of the nominees, return with me now to the 
not-so-thrilling days of the ALAR scare with apples, and you 
could apply that to any of the food safety concerns that we 
have in today's world, whether it is E. coli or whether it is 
hoof and mouth, or whether it is salmonella or whatever is 
happening, and I remember Dick Ling talking about this, and I 
remember Ed Madigan, our dear friend and colleague, and his 
efforts down at the Department with Ann Veneman and yourself, 
Jim, to put together some kind of an immediate response team 
with FDA, EPA and USDA so that when we have a food safety 
concern--scare is a better word--and we have people on 
television who are saying very alarmist things, and I 
understand that, because in terms of food safety, you have to 
err on the side of the public and public safety.
    It seemed to us that we could have more of a response team 
where you used the land grant schools and people like Dr. Jen; 
state departments of health and environment and agriculture. I 
have been talking to Ann about that--pardon me, Secretary 
Veneman--about putting together again a response team to, a, 
set the record straight; basically inform the public of what is 
going on; and, more importantly, what we are doing about it.
    We just had a situation, in Texas and perhaps in Oklahoma, 
I hope not, in regards to karnal bunt. We have just had the 
Star Link situation. You know about hoof and mouth. I would 
hope that we could work on putting together an immediate 
response team to calm the public; get the sound science facts 
out; and demonstrate to the public about what we are doing. I 
think it would really help.
    Would you like to make a comment on that regard?
    Mr. Moseley. Senator Roberts, I do remember ALAR. It seems 
like controversy precedes me and hopefully does not follow me, 
but I had just been appointed at EPA when the ALAR issue broke, 
and I know that there was a lot of concern about the issue, but 
there was probably more concern in this body and from the 
agriculture community out there about the way in which we 
responded to it. I think we have learned a little bit. I think 
we are better today than we were then. Are we good enough? 
Probably not.
    I hear your admonition. We need to be immediate insofar as 
we can be, immediate in our response, because many times, these 
issues are emotionalized before we have an opportunity to get 
out in front of them, and we will work with EPA and FDA and any 
other Federal agency that may need to be brought to the table 
to try to accomplish the objective.
    I hear your admonition, and it is one that is very real and 
I know heartfelt, and I feel the same.
    Senator Roberts. Dr. Jen, would you like to add anything, 
sir?
    Mr. Jen. Thank you, Senator Roberts.
    In my profession ,it is food processing. I attend the 
Institute of Food Technologists. That profession is interesting 
in that they have science communicators assigned, the 
university people expertise assigned, in every single state 
that connected to the media. Whenever there are certain 
questions related with food processing and the food safety part 
of it is involved, they gave the media that person who has 
expertise to respond in that.
    It has worked reasonably well. I think, if we can expand 
that into all of the disciplines within agriculture, we might 
be able to develop a quick response team. That is another 
different way of doing it.
    Senator Roberts. I think that aspect is very important. I 
know, Tom, you are a member of the Council of Agriculture 
Science and Technology that is a very important group, and at 
least 10 years ago, they were very influential and hope they 
can be again.
    I know my time has expired. I just want to make one other 
point. We held a hearing, a bipartisan hearing, several months 
ago in the Armed Services Committee, in the Emerging Threats 
Subcommittee, and we had appropriators there; we had the 
Intelligence Committee there; it was a very widespread hearing, 
and it was in regard to homeland security, and we brought up 
the issue, and Secretary Veneman testified along with 46 other 
Federal agencies all involved in homeland security. The subject 
was agroterrorism and the possibility that some state-sponsored 
outfit or some non-state-supported group or any group of wackos 
that wanted to get after our nation's food supply and what the 
status of that was, and where was the Department of Agriculture 
in regards to immediate response or hopefully to detect and 
deter and then, in the consequence, management?
    I am very concerned that we are not there. The FBI tells us 
that this is very, very high risk. The probability used to be 
low. Now, that probability is working up.
    I just sort of lay that out there. It is something that we 
do not talk about much in the USDA, but, I mean, the nation's 
food supply and the kind of chaos that would occur if, in fact, 
we have a major infestation is a very serious thing. I do not 
ask you to respond. I just wanted to indicate my concern.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Roberts.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you very much.
    I would just emphasize to both nominees that I concur with 
the comments made by my colleagues on the committee. I am 
impressed with your qualifications and the experience that you 
bring to the USDA. I wish more people had your qualifications 
and experience----
    Mr. Moseley. Thank you.
    Senator Allard [continuing]. Who oversee many of the 
programs that affect agriculture.
    I come from a unique part of the country where you cannot 
rely on nature itself to provide a favorable environment for 
farming. We have to do things in my part of the country to 
enhance the soil and to provide water for farmers. There are 
agricultural irrigated enterprises in the State of Colorado, 
and anybody who is in agriculture does some irrigation to one 
degree or another, or, if they do not, they have a very limited 
dry land farm situation.
    Part of the ability for them to survive is good science. It 
needs to be further developed not only for the production side, 
but for the regulators as well. Regulators need to have good 
science so that when they are making the calls, they are based 
on good, sound fact and not something that has been conjured 
up. I also want to emphasize how important I think education 
is, not only to the farmer, but to the public. All of this 
relates to food safety issues.
    In Colorado, we also have water issues. Sometimes nitrogen 
will build up in the flowing stream. We can bring the water 
out; for use in irrigation. If we know how much nitrogen is 
already in the water, it may limit the amount of fertilizer 
that the farmer has to put in. Then, it may be returned to the 
stream in better condition than when it came out.
    I hope that in your review of some of the policies in the 
Department of Agriculture that you would be very cognizant of 
how important water is in semi-arid climates like the State of 
Colorado. At times, we have agencies who feel like they want to 
take that from the farmer, and they have an adverse impact on 
that farmer. It puts him out of business.
    I do not know whether you have given that any thought, but 
I hope that you will keep that in mind during your 
deliberations. Mr. Moseley, maybe you would like to respond to 
my education comments and perhaps both of you would like to 
respond to the good science aspects I have mentioned.
    Mr. Moseley. Well, you have given me a long list of things 
that I could respond to, but it is obvious that in terms of the 
irrigation issues in the West, they are exceedingly important 
to agriculture. I have a number of friends of mine in the 
Western states, California specifically, but they are not in 
agriculture unless they have irrigation. I understand the 
difficulty and complexity of that issue. It is not easy. Water 
rights are a fundamental part of the West, and I certainly 
sense that.
    We, in our part of the world, why, we have the problem of 
getting rid of water. You shared something with me today that I 
was not aware of, and that just goes to show that we can learn 
something every day, that you can use the water, take the 
nitrogen out, put it back in the stream, and it is better. I 
was not aware of that. That is what technology, that is what 
scientific searching, does for us. Then, once we are able to 
accomplish that, we educate people.
    You have done that with me today, and that is the kind of 
activity that we are about, one of the important activities of 
the Department of Agriculture. I know that is Dr. Jen's area, 
but I am beginning to develop a very good relationship with Dr. 
Jen, though we have not known one another very long. It has 
just come together very quickly. I have a tremendous amount of 
confidence that with he and I both working together, we are 
going to be able to forward the need of farmers and consumers 
in this country with respect to research and education.
    Mr. Jen. Senator, I would like to probably address very 
briefly about education of the general public. I think you 
struck another chord that I feel very strongly about; that is, 
I feel that agriculture, the field in general, including 
academia and the Federal Government and all that, we have done 
a pretty good job of informing ourselves, but we have not done 
as good a job of informing the general public.
    I had an interesting experience when I got to Cal Poly a 
few years ago. I was interested, and I said do we have a 
Department of Ag Communication, and the answer was no. We do 
have a group of students who are interested in that, so I put 
together a program that combined journalism and agriculture 
together in ag communication, in order, in other words, for 
them to be able to tell not only the farmer but tell the 
general public the knowledge.
    The sad thing to me, Senator, is that they have an 
agriculture communication national committee or national 
association, and we send our students that never had a major in 
ag communication to compete. There are 15 categories. They come 
back and tell me that, Dr. Jen, we are the second-best in the 
nation.
    I feel it is very sad, because the fact is I do not even 
have a major. Our students did not even train in it. I just put 
a quick fix of get some journalism faculty to teach our 
agriculture kids how to read and how to write to the general 
public, and they are already the second-best in the nation.
    I see a tremendous need of the ag education field and that 
it is in my shop in USDA. You can be sure that I will look into 
it and see if we can strengthen that part of it.
    Senator Allard. Thank you, Mr. Chairman. I see my time is 
already expired. It seems like when it is your time, that red 
light turns on so quickly.
    [Laughter.]
    Senator Allard. There are many other areas I would like to 
cover, but I want to personally thank these nominees for their 
dedication to public service and I look forward to working with 
them.
    The Chairman. Thank you, Senator Allard.
    Senator Crapo.
    Senator Crapo. Thank you very much, Mr. Chairman. In the 
interests of time, I will not ask any questions, so you can 
relax. I do want to associate myself with the comments that 
Senator Allard made about the water issue in the West. I 
represent Idaho, and we are having a drought there this year, 
and we have tremendous competing needs for water. In fact, if 
you think about it, most of our civilization lives around water 
for a lot of reasons. It is the core of our drinking water for 
municipal and industrial development. In the West, we rely on a 
lot of our systems for flood control. It is recreation; it is 
our environment; it is irrigation; it is power production. I 
think there are very few aspects of most of our lives that are 
not dramatically impacted by water management, and agriculture 
is central to that, particularly in my state. I do want to 
focus on those issues with you in the future.
    I would simply conclude my comments by thanking both of you 
for being willing to serve. We know what it takes for a person 
these days to be willing to step up and say yes when the 
President asks for you to come forward and serve or when the 
Secretary of Agriculture asks for you to come forward and 
serve, and I just want you to know that we are aware of the 
tremendous sacrifices that you have made and are making, and we 
appreciate men of your caliber being willing to come forward 
and help our country in these times.
    Mr. Moseley. Thank you.
    Mr. Jen. Thank you.
    The Chairman. Thank you, Senator Crapo.
    Again, I want to echo the sentiments of my colleagues here 
in thanking you both for your dedication and devotion to public 
service, and the sacrifices you are making to assume these 
positions. This committee will, as soon as we can get a quorum, 
move expeditiously on these nominations.
    If there is nothing more to add, I will excuse the 
witnesses, and we will move to the second phase of our hearing 
this morning on feed grains and oil seeds. Thank you both very 
much.
    Mr. Moseley. Thank you, Mr. Chairman.
    Mr. Jen. Thank you.
    [Whereupon, at 9:40 a.m., the committee adjourned.]
      
=======================================================================


                            A P P E N D I X

                             July 12, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T9497.001

[GRAPHIC] [TIFF OMITTED] T9497.002

[GRAPHIC] [TIFF OMITTED] T9497.003

[GRAPHIC] [TIFF OMITTED] T9497.004

[GRAPHIC] [TIFF OMITTED] T9497.005

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 12, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T9497.006

[GRAPHIC] [TIFF OMITTED] T9497.007

[GRAPHIC] [TIFF OMITTED] T9497.022

[GRAPHIC] [TIFF OMITTED] T9497.021

[GRAPHIC] [TIFF OMITTED] T9497.023

[GRAPHIC] [TIFF OMITTED] T9497.024

[GRAPHIC] [TIFF OMITTED] T9497.008

[GRAPHIC] [TIFF OMITTED] T9497.009

[GRAPHIC] [TIFF OMITTED] T9497.010

[GRAPHIC] [TIFF OMITTED] T9497.011

[GRAPHIC] [TIFF OMITTED] T9497.012

[GRAPHIC] [TIFF OMITTED] T9497.013

[GRAPHIC] [TIFF OMITTED] T9497.014

[GRAPHIC] [TIFF OMITTED] T9497.015

[GRAPHIC] [TIFF OMITTED] T9497.016

[GRAPHIC] [TIFF OMITTED] T9497.017

[GRAPHIC] [TIFF OMITTED] T9497.018

[GRAPHIC] [TIFF OMITTED] T9497.019

[GRAPHIC] [TIFF OMITTED] T9497.020

[GRAPHIC] [TIFF OMITTED] T9497.025

[GRAPHIC] [TIFF OMITTED] T9497.026

[GRAPHIC] [TIFF OMITTED] T9497.027

[GRAPHIC] [TIFF OMITTED] T9497.028

[GRAPHIC] [TIFF OMITTED] T9497.029

[GRAPHIC] [TIFF OMITTED] T9497.030

[GRAPHIC] [TIFF OMITTED] T9497.031

[GRAPHIC] [TIFF OMITTED] T9497.032

[GRAPHIC] [TIFF OMITTED] T9497.033

[GRAPHIC] [TIFF OMITTED] T9497.034

[GRAPHIC] [TIFF OMITTED] T9497.035

[GRAPHIC] [TIFF OMITTED] T9497.036

[GRAPHIC] [TIFF OMITTED] T9497.037

[GRAPHIC] [TIFF OMITTED] T9497.038

[GRAPHIC] [TIFF OMITTED] T9497.039

[GRAPHIC] [TIFF OMITTED] T9497.040

[GRAPHIC] [TIFF OMITTED] T9497.041

[GRAPHIC] [TIFF OMITTED] T9497.042

[GRAPHIC] [TIFF OMITTED] T9497.043

[GRAPHIC] [TIFF OMITTED] T9497.044

[GRAPHIC] [TIFF OMITTED] T9497.045

[GRAPHIC] [TIFF OMITTED] T9497.046

[GRAPHIC] [TIFF OMITTED] T9497.047

[GRAPHIC] [TIFF OMITTED] T9497.048

[GRAPHIC] [TIFF OMITTED] T9497.049

[GRAPHIC] [TIFF OMITTED] T9497.050

[GRAPHIC] [TIFF OMITTED] T9497.051

[GRAPHIC] [TIFF OMITTED] T9497.052

[GRAPHIC] [TIFF OMITTED] T9497.053

[GRAPHIC] [TIFF OMITTED] T9497.054

      
=======================================================================


                         QUESTIONS AND ANSWERS

                             July 12, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T9497.055

[GRAPHIC] [TIFF OMITTED] T9497.056

[GRAPHIC] [TIFF OMITTED] T9497.057


</pre></body></html>
